fHmteb States Court of appeals?
for tfje Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 20-30412
Summary Calendar

January 7, 2021
Lyle W. Cayce
Clerk

Stanley Price
Plaintiff—Appellant,
versus
Paulette Riley Irons, Officially and Individually, Donald T.
Johnson; Quiana M. Hunt; Hunt-Clark Law Firm, L.L.C.,
Officially', Sharon K. Hunter; Robin M. Giarruusso, Officially
and Individually; ChristopherJ. Bruno, Officially and Individually;
Office of Disciplinary Counsel, Officially', Susan C.
Kalmbach; Judiciary Commission of Louisiana, Officially
and Individually, Michelle A. Beaty,
Defendants—Appellees.

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:19-CV-11451

rr^r\
I.

EXHIBIT

I

LSJ

No. 20-30412

Before Jolly, Elrod, and Graves, Circuit Judges.
Per Curiam:*
Stanley Price filed this lawsuit in the Eastern District of Louisiana
alleging misconduct related to a separate set of proceedings that Price filed in
Louisiana state court. He alleges that various judges committed judicial
misconduct; that opposing counsel acted unethically; and that the Office of
Disciplinary Counsel, Judiciary Commission of Louisiana, and their
respective investigative officers failed to properly investigate his complaints
of misconduct.
The district court dismissed Price’s claims. It concluded that the
claims brought against the defendants in their official capacities were barred
by the Eleventh Amendment. It further concluded that Price’s claims against
the various judges in their personal capacities were barred by judicial
immunity and that those brought against the investigative officers in their
personal capacities were barred by absolute immunity. The district court
dismissed Price’s claims against the opposing counsel and their law firm
because Price had failed to state a claim based on federal law. Price moved to
have Judge Vance, who heard his case in federal court, disqualified, but that
motion was denied as well.
On appeal, Price first argues that the district court should have given
him leave to amend his complaint. However, “[i]t is within the district
court’s discretion to deny a motion to amend if it is futile.” Stripling v.
Jordan Prod. Co., 234 F.3d 863, 872-73 (5th Cir. 2000). The district court
did not err in denying Price’s motion to amend because Price’s motion does
not explain how he could cure the deficiencies in his claims. Amending the
complaint would be futile.

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

2

No. 20-30412

Second, Price argues that judicial immunity does not apply because
the alleged misconduct related to the administrative responsibilities of the
state judges, not their adjudicative responsibilities. We agree with the district
court that the conduct complained of was judicial in nature because it
involved the judicial administration of Price’s case. See Boyd v. Biggers, 31
F.3d 279, 285 (5th Cir. 1994) (“A judge’s acts are judicial in nature if they
are ‘normally performed by a judge’ and the parties affected ‘dealt with the
judge in his judicial capacity.’” (quoting Mireles v. Waco, 502 U.S. 9, 12
(1991))).
Third, Price contends that the Ex Parte Young doctrine permits him to
assert his claims despite the Eleventh Amendment’s general grant of
sovereign immunity to nonconsenting states against private suits in federal
court. Ex Parte Young applies only where a plaintiff has sought prospective
injunctive or declaratory relief. Green Valley Special Util Dist. v. City of
Schertz, 969 F.3d 460, 471 (5th Cir. 2020) (en banc). Price’s complaint asked
the district court to award damages, not prospective relief, so the district
court was correct in its determination that the Eleventh Amendment bars his
suit against the defendants in their official capacities.
Fourth, Price asserts that he has stated a federal claim against the
opposing counsel and their law firm because he asserted a claim under 42
U.S.C. § 1983. However, as the district court noted, § 1983 applies only
where an individual acts under color of state law. See Cornish v. Corr. Servs.
Corp.y 402 F.3d 545, 549 (5th Cir. 2005). We agree with the district court
that these defendants did not act with state authority or under the color of
state law.
Finally, Price asks this court to reverse the denial of his motion for
disqualification. However, Price provides us with no basis to disqualify Judge
Vance.

3

No. 20-30412

For these reasons, and for the reasons outlined by the district court,
we AFFIRM the district court’s dismissal of Price’s claims. We also
AFFIRM the denial of Price’s motion for disqualification.

4

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CIVIL ACTION

STANLEY PRICE

NO. 19-11451

VERSUS
PAULETTE RILEY IRONS, ET AL.

SECTION “R” (2)

JUDGMENT
Considering the Court’s orders and reasons1 on tile herein,
IT IS ORDERED ADJUDGED AND DECREED that plaintiffs claims
against Judges Giarrusso, Bruno, and Irons, in their official capacities, are
dismissed without prejudice and, in their individual capacities, with
prejudice.
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that
plaintiffs claims against Judge Johnson, in his official capacity, are
dismissed without prejudice and, in his individual capacity, with prejudice.
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that
plaintiffs claims against the Louisiana Office of Disciplinary Counsel and
Susan Kalmbach, in her official capacity, are dismissed without prejudice
and against Kalmbach, in her individual capacity, with prejudice.

R, Docs. 58, 59, 64, 66, 67 and 68.

I

IT IS FURTHER ORDERED, ADJUDGED AND DECREED that
plaintiffs claims against the Judiciary Commission of Louisiana are
dismissed without prejudice.
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that
plaintiffs claims against Michelle Beaty, in her official capacity, are
dismissed without prejudice and, in her individual capacity, with prejudice.
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that
plaintiffs federal claims against Quiana Hunt, the Hunt-Clark Law Firm, and
Sharon Hunter are dismissed with prejudice, and plaintiffs state claims are
dismissed without prejudice.
Newr Orleans, Louisiana, this

8th

day of June, 2020.

SARAH S. VANCE
UNITED STATES DISTRICT JUDGE

2

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

January 29, 2021

Ms. Carol L. Michel
U.S. District Court, Eastern District.of Louisiana
500 Poydras Street
Room C-151
New Orleans, LA 70130
No. 20-30412

Price v. Irons
USDC No. 2:19-CV-11451

Dear Ms. Michel,
Enclosed is a copy of the judgment issued as the mandate and a
copy of the court's opinion.

Sincerely,
LYLE W. CAYCE, Clerk

By:

Mary C.Stewart,Deputy Clerk
504-310-7694
cc:
Mr.
Ms.
Mr.
Ms.

James Garrison Evans
Sharon Kaye Hunter
Stanley Price
Jacqueline Bordelon Wilson

^puJIntifps^
■l

EXHIBIT

I

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

STANLEY PRICE

CIVIL ACTION

VERSUS

NO. 19-11451

PAULETTE RILEY IRONS,
Officially and Individually, ET AL.

SECTION: MT" (2)

ORDER

The undersigned United States District Judge recuses himself from further participation in
this case pursuant to 28 U.S.C. § 455(a). The Clerk of Court is ORDERED to reallot the abovecaptioned case to another section of court. All dates remain in effect unless modified by the judge
to whom this case is transferred.
New Orleans, Louisiana, this 7th day of October, 2019.

October 07,2019

REALLOTTED TO

SECT. R

GREG GERARD GUIDRY
UNITED STATES DISTRICT JUDGE

i
s
$

PLAINTIFF’S
EXHIBIT

j>

